No. 20

-

IN THE
SUPREME COURT OF THE UNITED STATES

MARK PHILLIP CARTER, Petitioner,

UNITED STATES OF AMERICA, Respondent.
PROOF OF SERVICE
I, Angela Campbell, do swear or declare that on this date, September 30, 2020, as
required by Supreme Court Rule 29 1 have served the enclosed MOTION FOR LEAVE TO
PROCEED IN FORMA PA UPERIS and PETITION FOR A WRIT OF CERTIORARI on each
party to the above proceeding or that party's counsel, and on every other person required to be
served, by arranging to have them delivered by FedEx, properly addressed to each of them and
for delivery within 3 calendar days:

Office of the Solicitor General, Room 5616
Department of Justice
950 Pennsylvania Avenue, N.W.
Washington, D.C. 20530-0001
(202) 514-2217

Virginia Bruner
Assistant U.S. Attorney
U.S. Court Annex, Suite 286
110 East Court Avenue Des
Moines, Iowa 50309 (515)
473-9300

Mr. Joseph Bertogli
300 Walnut St Ste 270
Des Moines, IA 50309 Attorney
for Darren Coleman

Mr. Brent Rosenberg
400 Locust Street, Suite 380 Des
Moines, IA 50309 Attorney for
Breanna Brown

Mr. Paul Rosenberg
666 Grant Ave Suite 921

Mr. Keith Rigg
317 Sixth Ave., Suite 1300
Des Moines, IA 50309 Attorney
for Sarina Ann WIlliams

Des Moines, IA 50309 Attorney
for Ronzell Williams

